                          C
                     INSPE TOR GEN
                AL                E
           CI




                                            RA
       E
     SP




                                                L
                                                M
     TRO




                                            RA
           LE
      UB




                                       OG

                DA                          R
                     S S E T R E LI E F P




                                TARP and SBLF: Impact
                                 On Community Banks




Special Inspector General for the Troubled Asset Relief Program
                                                        April 25, 2012
2   special inspector general I troubled asset relief program
                                                                                 quarterly report to congress I April 25, 2012   3




Introduction
This report provides an overview of the regional and community banks that par-
ticipated in the most well-known TARP initiative, the Capital Purchase Program
(“CPP”). This report also discusses recent actions that have allowed 137 banks
to refinance out of the CPP program into another Government program outside
TARP, the Small Business Lending Fund (“SBLF”), while still leaving hundreds
more behind, many of them weaker than those that exited TARP through SBLF.
    Beginning in late 2008, the U.S. Department of the Treasury (“Treasury”)
invested $204.9 billion of TARP money through CPP into 707 banks of all sizes,
from global giants with assets of more than $1 trillion to local institutions with just
one or two offices. In return, the banks agreed to give Treasury an ownership inter-
est in the form of preferred stock and warrants to purchase more stock. They also
agreed to pay Treasury quarterly dividends or interest, and to abide by other restric-
tions including rules on executive compensation. Those obligations were meant in
part to encourage banks to repay the Government and exit CPP.
    The largest banks have indeed exited CPP. However, as of March 31, 2012, 351
regional and community banks remained in CPP. That’s in addition to 83 financial
institutions in TARP’s Community Development Capital Initiative (“CDCI”), for
a total of 434 still in TARP. Their business models are very different from those
of the mega-banks. So are the challenges they face. One paramount challenge is
access to new capital to replace TARP funds.
    Some smaller banks have been able to obtain capital to exit CPP through other
federal programs, notably SBLF, which allowed qualifying institutions to refi-
nance their TARP investments with Government money outside TARP. Treasury
refinanced 137 CPP-recipient banks into SBLF, which closed to new entrants on
September 27, 2011. The banks that exited TARP through SBLF were better
capitalized and financially stronger than those that remained in TARP. After the
137 banks left CPP, 390 institutions remained in the program, most of them small
community banks. The status of those banks is one of the major issues facing TARP
nearly four years after the financial crisis. SBLF culled a large number of healthier
community banks from TARP, leaving less-healthy banks in TARP that had less
capital, had missed dividends, or in many cases, were subject to enforcement actions
by their Federal banking regulators. In October 2011, SIGTARP issued recommen-
dations calling for Treasury to work with Federal banking regulators to develop a
clear TARP exit path to ensure that as many community banks as possible repay the
TARP investment, and prepare to deal with the banks that cannot.
    This report explains the structure of the remaining CPP banks as they relate
to the structure of the banking industry as a whole, particularly the community
banking sector. It examines the impact of TARP on community banks. It analyzes
the TARP banks that exited TARP through SBLF versus banks that remain in
TARP. It also examines the current status of TARP banks in the six months since
SBLF closed to new entrants.
    Separately, SIGTARP is conducting an audit of the process for refinancing
TARP banks into SBLF, including whether Treasury and Federal banking regulators
consistently evaluated SBLF applications from TARP institutions.1
4            special inspector general I troubled asset relief program




                                                    The U.S. Banking Industry
                                                    Banking Sector Has Multiple Tiers
                                                    Through CPP, Treasury invested in 707 financial institutions of all sizes, or
                                                    about 10% of the industry. Hundreds of institutions have exited the program,
                                                    but those remaining in CPP are mostly small institutions that collect deposits
                                                    from members of their communities and lend that money to local businesses,
                                                    farmers, and consumers. They may be virtually unknown outside their immediate
                                                    communities, but many of these small banks play a critical role in providing loans
                                                    and cash management services to local employers as well as services such as
                                                    checking accounts and auto loans to local residents. Among the smallest banks in
                                                    CPP: Freeport State Bank with $23 million in assets and two offices in the wheat-
                                                    growing plains of Kansas; Saigon National Bank with $59 million in assets and a
                                                    bilingual staff catering to Vietnamese immigrants in southern California; and Crazy
                                                    Woman Creek Bancorp, a bank holding company with $144 million in assets that
                                                    took its memorable name from a tributary of Wyoming’s Powder River.2
                                                         The biggest U.S. banks – defined by the Federal Reserve Board (“FRB”) as
    For more information on how banks               those holding $50 billion or more in assets – raised capital and met other Treasury
    left TARP, see SIGTARP’s September              conditions to exit CPP by the end of 2009. This group includes four banks that
    29, 2011, audit report, “Exiting TARP:
                                                    each have more than $1 trillion in assets and are household names: Bank of
    Repayments by the Largest Financial
                                                    America Corp., Citigroup Inc., JP Morgan Chase & Co., and Wells Fargo &
    Institutions.”
                                                    Company. Together, the four control just under half of all banking industry assets.3
                                                         Most institutions in the next industry tier, regional banks with assets of $10
                                                    billion to $50 billion, were also able to find new sources of capital and leave CPP
                                                    in 2010 or 2011.4 Eleven regional banks remained in the program on March
                                                    31, 2012: Cathay General Bancorp., First BanCorp., Flagstar Bancorp, Inc.,
                                                    International Bancshares Corporation, M&T Bank Corporation, New York Private
                                                    Bank & Trust Corporation, Popular, Inc., PrivateBancorp, Inc., Regions Financial
                                                    Corporation, Synovus Financial Corp., and Zions Bancorporation. Just after the
                                                    end of the quarter, on April 4, 2012, Regions Financial Corporation, the largest
                                                    institution that remained in CPP, paid back its $3.5 billion in TARP money, exiting
                                                    TARP.5 Most of the other regional banks have taken initial steps to issue new stock
                                                    or debt, or are selling assets with plans to repay their CPP funding, according to
                                                    company announcements and industry analysts.
                                                         The speed and manner in which banks and thrifts have exited CPP – or not
                                                    – provides insights into the capital raising, regulatory, and competitive challenges
                                                    faced by the nation’s banking industry and especially its smallest institutions.
                                                         Some banks exited TARP only through other Federal Government programs.
                                                    Last year, 137 banks qualified for a path out of CPP by refinancing taxpayer funds
                                                    through SBLF, a separate non-TARP Government program. SBLF finished accept-
                                                    ing participants on September 27, 2011. Another group of 28 banks exited CPP in
                                                    2010 by converting the Government’s investment into another program within TARP,
                                                    CDCI, which supports banks and credit unions that specialize in consumer banking
                                                    services, credit counseling, and business planning for low-income borrowers.6
                                                                                quarterly report to congress I April 25, 2012   5




    Only 43% of banks that have exited CPP have done so by fully repaying the
Government. In 22 cases, banks exited TARP either by Treasury selling its invest-
ment in an institution at a loss, or by merging with other CPP banks. Sixteen banks
left CPP the hard way – by failing.
    But nearly half of all CPP recipients remained in the program on March 31,
2012, and those that are still in CPP will face a significant rise from 5% to 9% in
dividend payments owed to the Government beginning in late 2013. The majority
of those banks are smaller banks, often referred to as community banks because
they serve customers within a compact geographical area.

Community Banks Play an Important Role in the Economy
There is no universally accepted definition of what constitutes a community
bank. A group that lobbies on behalf of community banks, the Independent
Community Bankers of America, shies away from defining a community bank
by size and says its members range from institutions with a modest $3 million in
assets to those with as much as $17 billion in assets.7 The FRB, which supervises
bank holding companies and member institutions of the Federal Reserve System,
defines a community bank as one with assets up to $10 billion.8 The Office of the
Comptroller of the Currency (“OCC”) has a lower threshold of up to $1 billion
in assets for the nationally chartered community banks and thrifts it supervises.9
(Credit unions, which include a number of institutions in CDCI, are regulated
separately by the National Credit Union Association or under state law.)10
    The Federal Deposit Insurance Corporation (“FDIC”), which regulates most of
the country’s small banks, has also used the $1 billion threshold as a cut-off point
for community banks but is considering a more flexible definition. As part of a 2012
project analyzing community banks’ business models and competitive pressures,
FDIC researchers said they expanded the definition to include banks with more
than $1 billion in assets if they meet certain criteria. Those exceptions include
operating in fewer than four states and fewer than three major cities; maintaining
a loan to assets ratio higher than 33% and a core deposits to assets ratio of at least
50%; and operating individual bank branches with deposits under $5 billion.11 By
that definition, 6,526 institutions were community banks or thrifts out of the total
7,658 U.S. financial institutions that existed on December 31, 2010, the FDIC
researchers said.12
    Despite the lack of agreement on defining community banks by asset size, there
are other characteristics that distinguish community banks from global or regional
banks. The best way to define community banks, argues a state banking regulators
group, is by their customer relationships. “In community banking, both the bor-
rower and the lender maintain a stake in the long‐term outcome of the transaction.
Community banks place a greater emphasis on long term customer relationships,
incorporating soft information that is not easily quantifiable,” the Conference of
State Bank Supervisors said in a recent white paper.13
    One especially important focus for community banks is small-business lending.
Community banks provide nearly 40% of small-business loans made by U.S. banks
even though they hold less than 11% of banking industry assets, according to the
6   special inspector general I troubled asset relief program




                                           FDIC.14 Community bank lending is especially important to small businesses that
                                           have few or hard-to-value assets as collateral and lack audited financial statements.
                                           In those cases, a lending officer at a community bank might use his or her knowl-
                                           edge of the local economy, the borrower’s business, the character and personality
                                           of the business owner, and credit scoring data to decide whether to approve a loan
                                           application.15 “When I first arrived [at the bank], I found that one of the things
                                           they did was look at the neatness of the woodpile of the customer that we were
                                           lending to as one way to see whether or not they were a person who would pay us
                                           back,” Dorothy Savarese, CEO and president of Cape Cod Five Cents Saving Bank,
                                           a non-TARP bank, said at a recent FDIC conference on the future of community
                                           banking.16
                                               “Once a loan is made to a small business or consumer, a community bank typi-
                                           cally holds onto it rather than securitizing or selling it,” Timothy Koch, a professor
                                           of banking and finance at the University of South Carolina, said at that confer-
                                           ence.17 “Unlike big banks, community banks generate most of their earnings from
                                           net interest income on loans, and rely on core deposits by customers in the same
                                           community to fund lending,” he said.
                                               Community banks’ lending to small businesses has decreased recently while
                                           large banks increased loans to small businesses. Small banks — those with assets
                                           under $1 billion — have steadily lost market share in small-business lending since
                                           1995, according to an analysis of loan data by information provider SNL Financial
                                           LC (“SNL”).18 That group of banks now owns just 34% of commercial and indus-
                                           trial loans of less than $1 million that were secured by collateral other than real es-
                                           tate, down sharply from 51% in 1995, according to SNL. During that same period,
                                           bigger banks with more than $10 billion in assets doubled their market share of
                                           such loans, SNL reported.

                                           Community Banks Have Limited Access to Capital
                                           Banks of all sizes have felt regulatory pressure since the financial crisis to reduce
                                           risky loans and build stronger balance sheets able to absorb unexpected losses.
                                           Community banks need capital to pay off CPP investments, and raising that capital
                                           has been a significant challenge along with weakened loan portfolios and slow
                                           economic growth.
                                               Industry experts say the amount of new capital needed by community banks
                                           nationwide is substantial. According to analysts with investment firms Raymond
                                           James and Barack Ferrazzano Financial Institutions Group, and consulting firm
                                           McGladrey & Pullen, LLP, it will take $23 billion in fresh capital for community
                                           banks to repay TARP or SBLF funds; to absorb credit losses and boost loan loss
                                           reserves; and to meet higher regulatory capital ratios.19 A higher estimate of $90
                                           billion in community bank capital needs came from StoneCastle Partners, an as-
                                           set management and investment banking firm. It included $43 billion for healthy
                                           institutions to acquire weak and failing banks; $28 billion for banks to clean up
                                           their balance sheets; $12 billion to boost loan loss reserves; and $7 billion for
                                           internal growth.20
                                                                                quarterly report to congress I April 25, 2012          7




    Ownership of the smallest community banks is often concentrated in the hands
of a limited number of shareholders or family members. About 2,000 community                  Subchapter S Corporations (“S
banks are organized as Subchapter S corporations, which have fewer than 100                   corporations”): Corporate form that
shareholders and are taxed at the shareholder level, rather than the corporate                passes corporate income, losses,
level.21 About 1,000 community banks are publicly traded companies, raising                   deductions, and credit through to
capital through public offerings and private placements of their stock.22 However,            shareholders for Federal tax purposes.
unlike the biggest U.S. banks with millions of shares traded daily on NASDAQ or               Shareholders of S corporations report
the New York Stock Exchange, many community banks are thinly traded on over-                  the flow-through of income and losses
the-counter markets. As of March 31, 2012, nearly half (169) of the remaining 351             on their personal tax returns and are
CPP institutions were publicly traded community banks.                                        taxed at their individual income tax
    Banks with assets under $1.5 billion do not have access to capital from private           rates.
equity firms, mutual funds, foundations, and other institutional investors, accord-
ing to some who follow the industry. “Capital offerings for less than $20 million to
$30 million are often too small for many institutional investors regardless of struc-
ture or investment thesis. Institutional investors have fixed costs to cover and deal
size minimums. They simply cannot monitor an unlimited number of small invest-
ments, no matter how promising,” the Conference of State Bank Supervisors said
in a recent white paper.23 Institutional investors also want a bank to have a business
plan that allows the investors to eventually realize gains through a stock offering or
by selling the bank to a larger institution.
    Small banks that are successful in raising new funds “often first pass the hat
around the board room table,” industry experts told a capital-raising panel discus-
sion held by the Federal Reserve Bank of St. Louis.24 Money raised from insiders
sends an important signal of confidence about the bank’s future to other potential
investors. Another source of capital for small banks can be investments by local
business owners and wealthy individuals who are among the bank’s customers.
    Some industry experts predict a wave of mergers and consolidation among
community banks over the next three to five years. “Size matters, and a rule of
thumb used by many industry experts is that most banks eventually will need to
be $1 billion in assets or greater in order to achieve the scale necessary to oper-
ate as an independent entity,” according to a white paper published this year by FJ
Capital Management, LLC. “The typical merger can save 20% to 40% in operating
costs, thereby creating significant earnings accretion for the combined entity.”25
FJ Capital estimated 413 banks are potential merger candidates because they
were trading below tangible book value, and had substandard capital levels and/or
elevated asset quality issues.26
8   special inspector general I troubled asset relief program




                                           The Impact of TARP on Community Banks
                                           The 2008 financial crisis set off shock waves that rippled through the U.S.
                                           economy and onto the balance sheets of community banks. Faced with frozen
                                           credit markets and a deteriorating housing market, nearly 3,000 financial
                                           institutions, including many community banks and thrifts, applied for the TARP-
                                           funded CPP after it was unveiled on October 14, 2008.27 Of those, 707 were
                                           accepted into CPP; 351 small-and medium-sized banks remain, along with 83
                                           financial institutions in CDCI, for a total of 434. Treasury describes CPP as a
                                           program to provide emergency support to “viable” banks.28 There are signs that
                                           some CPP banks face difficulty in exiting TARP. Despite the dramatic efforts
                                           to expedite the exit of the largest banks from TARP, there appears to be no
                                           corresponding plan for community banks’ exit from TARP. The only exit strategy
                                           for smaller banks that has been announced has been SBLF, through which 137
                                           banks exited TARP. A SIGTARP analysis of the 351 banks that remained in CPP on
                                           March 31, 2012, shows one-third had missed five or more dividend payments, and
                                           32% faced formal enforcement actions by their regulators.

                                           TARP Provided Lifeline to Community Banks
                                           Treasury created CPP in 2008 with a stated goal of injecting capital into viable
                                           financial institutions of all sizes with the expectation they would make new loans
                                           to consumers and businesses and help support the economy.29 “This program
                                           is designed to attract broad participation by healthy institutions and to do so in
                                           a way that attracts private capital to them as well. Our purpose is to increase
                                           confidence in our banks and increase the confidence of our banks, so that they
                                           will deploy, not hoard, their capital,” Treasury Secretary Henry Paulson, Jr. said
                                           at that time.30 After receiving TARP money, small banks with assets under $2.5
                                           billion “significantly decreased” risky new commercial loans compared with their
                                           non-TARP peers, according to FRB researchers who studied risk ratings of loans
                                           made from November 2007 through August 2010.31 “This is the first evidence that
                                           the TARP capital infusions may have reduced risk-taking among the small banks,”
                                           the researchers wrote in a recent discussion paper, adding that their overall level
                                           of commercial loans remained about the same as that of non-TARP small banks.
                                           Larger TARP banks, on the other hand, increased the riskiness of their loans
                                           without actually increasing lending, they found.
                                                Under CPP, a community bank would give senior preferred stock and related
                                           warrants to Treasury and use TARP money to boost its Tier 1 capital, a high-quality
                                           form of capital that can be used to absorb losses. Each dollar of additional Tier 1
                                           capital, in theory, gave a healthy bank the leverage to issue $10 in new loans and
                                           remain adequately capitalized under Federal banking regulations.32 The smallest
                                           banks with assets up to $500 million were allowed to apply for a maximum of 5%
                                           of their risk-weighted assets. Larger banks could apply for up to 3% of their risk-
                                           weighted assets.33
                                                By the time CPP stopped investing in banks and thrifts, the program had
                                           handed out capital lifelines totaling nearly $205 billion to 707 financial institutions
                                                                                 quarterly report to congress I April 25, 2012                       9




of all sizes.34 In return, each was to pay a 5% annual dividend to Treasury until it        FIGURE 3.1
was able to repurchase its stock and warrants from the Government. In addition              CPP BANKS BY
to paying the Government a quarterly dividend or interest payment, CPP banks                ASSET SIZE,
and thrifts had to agree to limits on executive compensation, dividend payments to          AS OF 3/31/2012
other shareholders, and stock repurchases.35 As an incentive to exit the program,
the dividend rate was scheduled to almost double to 9% five years after a bank                         11
entered the program, beginning in late 2013.
                                                                                                            33
    As of March 31, 2012, only 11 of the 351 institutions remaining in CPP had                   72
assets of more than $10 billion, the FRB’s asset definition for regional banks. On
April 4, 2012, Regions Financial Corporation, the largest of those 11 banks, exited                            164
                                                                                                 71
TARP, leaving only 10 regional banks. Virtually all others were community banks.
Significantly, more than half of the remaining TARP banks were small banks and
thrifts holding less than $500 million in assets. Figure 3.1 shows remaining CPP
institutions by asset size.                                                                     Assets less than $100 million
                                                                                                Assets $100 million to $500 million
In the Aftermath of the Crisis, Despite Some Positive Signs,                                    Assets $500 million to $1 billion

Challenges Abound for Community Banks                                                           Assets $1 billion to $10 billion
                                                                                                Assets more than $10 billion
While federal regulators now point to signs of improving health in the U.S. banking
industry, the financial crisis and economic recession “have taken a serious toll”
                                                                                            Source: SIGTARP analysis of SNL Financial data.
on community banks, Martin Gruenberg, acting FDIC chairman, said in a 2011                  Assets are from GAAP financials. If unavailable,
speech about the condition of the banking system.36 Of the 396 FDIC-insured                 regulatory filings were used. Financial information
                                                                                            of subsidiary or subsidiaries was used if consolidated
institutions that failed between January 1, 2008, and September 30, 2011, more              financials for holding company were unavailable.

than 300 were community banks, he said.37 For comparison, a total of just 27
banks failed in the preceding eight years.38 In response, the FDIC is studying how
community banks and their business models have changed during the past two
decades.39 SIGTARP’s tally of failed banks as of March 31, 2012, includes 16
community banks that received CPP funding before they were shut down.40
    Despite a sluggish economy, banking experts see some positive signs for com-
munity banks. “Although the ratios of nonperforming assets remain high in many
cases, asset quality appears to be stabilizing, and bank provisions for loan losses
are decreasing. In addition, capital ratios are steadily improving at community
banks, in part due to increases in retained earnings and a greater ability to raise
new capital,” FRB Chairman Ben Bernanke told a conference on community
banking earlier this year.41 An analysis of U.S. community banks’ business loans
under $1 million showed that the contraction in their commercial and industrial
business portfolios since the 2008 financial crisis has “virtually stabilized,” accord-
ing to an October 2011 report by researchers at the Federal Reserve Bank of San
Francisco.42 However, that was not true of their small-business loans to commer-
cial real estate developers.
    Even though the worst days of the financial crisis have passed, community
banks still face challenges. Many small banks were hit especially hard by the col-
lapse in the commercial real estate market that was precipitated by the crisis and
deepened in the recession that followed. Some had bulked up on commercial real
estate loans (“CRE”) in the decade before 2008 as they lost business to bigger
10            special inspector general I troubled asset relief program




                                                     banks in other traditional products such as auto loans, home mortgages, and credit
                                                     cards. A lending portfolio with a high concentration of CRE was especially vulner-
                                                     able if the bank had failed to carefully monitor appraisal values and its total risk
                                                     exposure to large borrowers with multiple loans. Analyses of failed banks suggest
                                                     that a CRE concentration “proved disastrous for many community banks during
                                                     the economic downturn,” according to the senior bank examiner with the St. Louis
                                                     Federal Reserve Bank.43
                                                         In 2010, the Office of the FDIC Inspector General issued a report that exam-
                                                     ined bank failures that occurred in 2009. That report found that FDIC examin-
     Acquisition, development, and
                                                     ers had not fully considered risky behaviors such as a bank’s aggressive growth
     construction loans: Short-term loans
                                                     in CRE loans and in acquisition, development, and construction (“ADC”) loans
     used by real estate developers to buy
                                                     when assigning ratings of bank strength.44 Ratings often focused on a bank’s
     land, add infrastructure, and construct
                                                     traditional financial data and failed to also take into account an excessive concen-
     buildings.
                                                     tration of assets, ineffective executives or board members, lack of risk mitigation
                                                     controls, and compensation that was tied to quantity of loans rather than quality.
                                                     “Concentrations in CRE and ADC loans, coupled with inadequate risk manage-
                                                     ment practices, have played a role in practically every failure that was the subject of
                                                     an MLR [material loss review],” according to the report.45

                                                     Banks Continue to Rely on TARP Funds
                                                     A key issue raised by SIGTARP early in the program was tracking the way CPP
                                                     recipients used the taxpayer money they received, and how much of it was used to
                                                     boost lending as intended when the program was created. When Treasury initially
                                                     refused to require CPP institutions to report on their use of TARP funds, SIGTARP
                                                     launched its own survey of 360 recipients early in 2009 and brought significant
                                                     transparency, issuing a report that found the capital injections were primarily used
                                                     by banks for lending, capital reserves, and investments. Most of the respondents
                                                     — 309 banks — had assets under $10 billion.46 SIGTARP reported, “The results
                                                     of the survey demonstrate that, despite the inherent fungibility of money, financial
                                                     institutions are capable of providing at least basic narrative descriptions of how
                                                     they used TARP funds. Although most banks reported that they did not segregate
                                                     or track TARP fund usage on a dollar-for-dollar basis, they were able to provide
                                                     insights into their actual or planned use of TARP funds; indeed, more than 98% of
                                                     survey recipients reported their actual uses of TARP funds. Moreover, the results
                                                     show that institutions commonly have used TARP funds in ways that will not
                                                     immediately or directly register on a bank’s lending report.”47 Table 1.1 shows the
                                                     findings of that survey by use of funds and institution size.
                                                                                                             quarterly report to congress I April 25, 2012   11




Table 1.1
 Results of SIGTARP’s 2009 survey on cpp use of funds, by institution
 asset size
                                                       Assets                 Assets        Assets        Assets
                                                    Less Than            $100 Million    $1 to $10     More Than
                                                  $100 Million           to $1 Billion       Billion   $10 Billion
 Lending                                                            54             87          113             46
 Investment                                                         12             31            40            27
 Debt Payoff                                                        11             10            26             5
 Acquisition                                                         1              1             8             5
 Capital Cushion or Reserves                                        32             48            55            21
                                       Total                  110                177           242           104
 Note: Many respondents reported multiple uses of funds.

 Source: SIGTARP Survey of Initial CPP recipients, July 20, 2009.



    In December 2008, SIGTARP recommended that Treasury require all TARP
recipients to report on the actual use of TARP funds. After one year, in December
2009, Treasury finally agreed to implement SIGTARP’s recommendation. Treasury
also launched an annual survey in 2010 that asks each CPP recipient for a de-
tailed, narrative description of what it is doing with capital received under the
program.48 Treasury publishes a monthly lending report that aggregates all CPP
recipients’ average outstanding balance for consumer loans and commercial loans.49
    The latest annual survey results available from Treasury, for calendar year 2010,
showed 82% of respondents said they had used TARP funds either to increase lend-
ing or to “reduce lending less than otherwise would have occurred.”50 Nearly half of
the group said they used TARP funds to boost reserves for non-performing loans,
and 45% said they applied the money toward their overall capital level. Meanwhile,
10% said they used TARP funds in 2010 to purchase another financial institution
or assets from an institution.
    One bank described how TARP funds allowed it to be aggressive in writing
down problem loans in 2010. “Without CPP funds, there would have been a strain
on capital that would potentially put the Company in a capital preservation mode
and minimize the opportunity to seek new loans. We remained in a well-capitalized
capital position with all of the regulatory benchmarks and without the infusion
could have slipped into an adequately capitalized position, rather than well-capital-
ized,” Georgia-based Colony Bankcorp, Inc. said on its use of funds survey form.
The bank received $28 million and remains in TARP.51
    Another Georgia bank, Ameris Bancorp, said it used TARP funds to participate
in acquiring the assets of six failed banks from the FDIC. “If we had not taken the
CPP funds, we would not be doing that or anything else to leverage capital. We had
enough capital to maintain a cushion and an excess throughout this cycle other-
wise, but the TARP funds allowed us to be more offensive and growth oriented,”
Ameris said on its 2010 use of funds survey.52 It received $52 million in CPP capi-
tal and remains in TARP.
12   special inspector general I troubled asset relief program




                                            Community Banks Need New Capital to Exit TARP
                                            To exit TARP, banks must obtain the approval of their primary Federal banking
                                            regulator, which determines if an institution is strong enough to maintain
                                            adequate capitalization after repaying the CPP funds. The regulator also weighs
                                            the impact on an institution’s ability to lend and examines its internal capital
                                            assessment process.53 The banks that have exited TARP so far have used capital
                                            from a variety of sources to pay back the Government, including selling assets,
                                            selling new common stock, selling debt securities, or accepting funds from other
                                            Government programs.
                                                To exit TARP, in addition to paying Treasury to buy back the TARP preferred
                                            shares, bank holding companies must make up any dividend payments they
                                            missed.54 However, banks that were not subsidiaries of holding companies issued
                                            non-cumulative preferred shares to Treasury and have no legal obligation to
                                            pay dividends to Treasury unless the institution declares a dividend to sharehold-
                                            ers. These institutions do not have to repay skipped dividends or interest to
                                            exit TARP.55
                                                Instead of a lump sum repayment, some publicly-traded banks have repaid
                                            Treasury’s capital injection in installments, taking additional time to purchase the
                                            warrants, which Treasury is required to sell at a fair market value. In cases when
                                            Treasury and a publicly-traded bank were unable to negotiate a price for warrants,
                                            Treasury has held an auction to sell the warrants.56
                                                TARP banks have also asked Treasury to restructure or exchange its investment.
                                            Treasury has said it is willing to consider restructuring proposals because it believes
                                            inaction may lead to a bank failing, which would mean a total loss for the tax-
                                            payer.57 Treasury has agreed to more than two dozen restructurings and exchanges
                                            with CPP banks of all sizes since 2008. At least one of those banks, Midwest Banc
                                            Holdings Inc., failed after a restructuring in which Treasury exchanged $84.8
                                            million in preferred shares for $89.4 million of mandatorily convertible preferred
                                            stock.58 In weighing a restructuring request, Treasury told SIGTARP that it consid-
                                            ers the effect restructuring would have on the bank’s capital, and the overall impact
                                            on the taxpayer investment.59 Terms of restructuring agreements often involve
                                            Treasury exchanging its CPP preferred shares for more junior forms of equity such
                                            as common stock, sometimes at a discount or loss.
                                                                                                                       quarterly report to congress I April 25, 2012   13




SBLF as an Exit Strategy from TARP for
Community Banks
SBLF was created by the Small Business Jobs Act of 2010, with the stated intent
of allowing Treasury to make capital investments in community banks in order to
increase the availability of credit for small businesses.60 Many community banks
in CPP looked to SBLF as a way to refinance and exit TARP. Treasury received
935 applications to the program, of which 320 were from TARP banks (315 from
CPP participants and five from CDCI participants).61 Treasury gave SBLF funding
to 332 institutions and invested $4 billion in those institutions.62 Those included
137 community banks that refinanced from CPP into SBLF.63 None of the CDCI
institutions that applied received funding.64 The 137 CPP banks received two-
thirds of the total SBLF funding ($2.7 billion), while non-CPP institutions received
one-third of the funding ($1.3 billion). Table 1.2 shows the 10 banks with the
largest CPP investments that refinanced into SBLF. Nine of the 10 largest TARP
banks that refinanced into SBLF also immediately repurchased TARP warrants
from Treasury. Some may have used SBLF funds for their warrant repurchases.

Table 1.2
 Banks With the 10 Largest TARP Investments That Were Refinanced
 Into SBLF ($ Millions)
                                                                  TARP           TARP Warrant                       SBLF
                                                              Principal            Disposition                  Principal
 Institution                                                Investment              Proceeds                  Investment
 Western Alliance Bancorporation                                  $140.0                     $0.4                     $141.0
 W.T.B. Financial Corporation                                       110.0                      5.5                      89.1
 First Busey Corporation                                            100.0                      0.1                      72.6
 Plains Capital Corporation                                          87.6                      4.4                     114.1
 Heartland Financial USA, Inc.                                       81.7                      1.8                      81.7
 TowneBank                                                           76.5                       —                       76.5
 First Merchants Corporation                                         69.6                      0.4                      90.8
 First Bancorp                                                       65.0                      0.9                      63.5
CoBiz Financial Inc.                                                 64.5                      0.1                      57.4
Great Southern Bancorp                                               58.0                      6.4                      57.9
 Notes: Numbers may be affected by rounding. Warrant disposition proceeds as of 3/31/2012.

 Sources: Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_
 transactions.aspx, accessed 2/29/2012; Treasury, Transactions Report, 4/2/2012.



    While the SBLF program provided an exit path from TARP for the 137 banks
that took part, 390 banks remained in CPP as of the September 27, 2011, closing
date of SBLF investing authority. Of those 390 banks, nearly half — 178 banks —
had applied to the SBLF program, but did not receive funding.65 The sheer number
of CPP banks that applied indicates that SBLF was a key potential exit strategy for
more than half of the community banks in CPP. The exit of 137 banks dwarfs the
28 banks that exited CPP to CDCI, another TARP program.66
14              special inspector general I troubled asset relief program




     FIGURE 3.2                                                   Seventy-nine CPP banks that applied to SBLF were not eligible to participate
     RESULTS OF CPP                                           in SBLF because they were not current on TARP dividends or interest payments
     BANK APPLICATIONS                                        (in some cases because their federal or state regulators restricted their ability to
     TO EXIT TARP                                             pay dividends).67 Other TARP banks were eliminated at various steps of the SBLF
     THROUGH SBLF                                             review process: four were rejected after review by their Federal banking regulator,
                15                                            51 after first-level review by the application review committee, 17 after review by
                                                              the investment committee, and two after review of the Treasury official overseeing
                                                              the program.68 Banks typically withdrew their application when they were informed
          74            137                                   they were ineligible or otherwise rejected for funding. Figure 3.2 shows the disposi-
                                                              tion of CPP bank applications to the SBLF program.
               89

                                                              TARP Banks Received Larger SBLF Investments Than
                                                              Other Banks
           Received SBLF funding                              TARP banks received larger SBLF investments than non-TARP banks; 61% of
           Ineligible by SBLF program requirementsa           TARP banks received investments of more than $10 million, compared with 22%
           Rejected after review b
                                                              of non-TARP banks that received more than $10 million.69 The size of SBLF
           Withdrew or declined funding
                                                              investment in TARP banks varied dramatically — from the smallest investment
                                                              in a TARP bank of $700,000 to Farmers State Bankshares, Inc., to the largest
     Notes: This figure shows the disposition of the 315      investment in a TARP bank of $141 million to Western Alliance Bancorporation.70
              applications of CPP banks to refinance
              through SBLF.                                       Non-TARP banks that got SBLF funding tended to be smaller in size than
     a
       Includes banks that were not current on dividends      TARP banks that exited TARP through SBLF. The size of the bank affected the
       and interest (79), banks that had ever missed two
       TARP payments (3), and banks that were otherwise       amount of funding a bank could receive under SBLF. The average SBLF invest-
       ineligible by statute (7).
     b
         Includes banks that were rejected after review of
                                                              ment in TARP banks was nearly three times the size of the average non-TARP
         the Application Review Committee (51), Investment
         Committee (17), Deputy Assistant Secretary (2), or
                                                              bank investment. The average TARP bank SBLF investment was $19.6 million,
         by the bank's Federal banking authority (4).         with a median investment of $12.6 million, compared with the average non-TARP
     Source: Treasury, “TARP Participants that Applied        bank SBLF investment of $6.9 million, with a median investment of $4.6 mil-
     to SBLF,” list provided to SIGTARP on 12/29/2011.
                                                              lion.71 Table 1.3 shows the size of SBLF investments for TARP and non-TARP
                                                              community banks.
                                                              Table 1.3
                                                               Banks in SBLF, by SBLF Funding Amount
                                                                                                  Less than        $10 to $20         $20 to $30        $30 to $50         $50 Million
                                                                                                 $10 Million           Million            Million           Million          or More
                                                               TARP Banks                                    53                37                 26                  9            12
                                                                   Percent                                  39%              27%                19%                 7%             9%
                                                               Non-TARP Banks                               152                30                  8                  5             0
                                                                   Percent                                  78%              15%                 4%                 3%             0%
                                                               Note: Numbers may be affected by rounding.

                                                               Sources: Treasury, SBLF Transactions Report, 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_
                                                               transactions.aspx, accessed 2/29/2012.



                                                                 SBLF gave 124 of 137 TARP banks the full funding they needed to pay off
                                                              TARP and gave 107 of those banks additional funds.72 Thirteen banks combined
                                                              SBLF funds and funds from other sources to exit TARP. Fifty-three TARP banks
                                                              received an SBLF investment 50% or more larger than the TARP investment,
                                                                                                                       quarterly report to congress I April 25, 2012   15




including 26 TARP banks that received an SBLF investment of double or more
the TARP investment and two banks that received more than triple the TARP
investment: Centrix Bank & Trust ($7.5 million in TARP funds compared to
$24.5 million in SBLF funds) and Banner County Ban Corporation ($795,000 in
TARP funds compared to $2.4 million in SBLF funds).73 Eighteen TARP banks
received at least $10 million more in SBLF funding than they had received in
CPP investment, including three banks that received over $20 million more in
SBLF funding.74 Table 1.4 lists the 10 largest dollar increases in investment from
TARP to SBLF.

Table 1.4
 Banks With the 10 Largest Increases in Government Investment
 from TARP to SBLF ($ MILLIONS)
                                                     TARP                  SBLF             Increase in
 Institution                                   Investment            Investment             Investment        % Increase
 Plains Capital Corporation                           $87.6                $114.1                  $26.4                30%
 Community Trust Financial
                                                        24.0                  48.3                   24.3             101%
 Corporation
 First NBC Bank Holding
                                                        17.8                  37.9                   20.1             113%
 Company
 First Guaranty Bancshares, Inc.                        20.7                  39.4                   18.7               91%
 Eagle Bancorp, Inc.                                    38.2                  56.6                   18.4               48%
 Centrix Bank & Trust                                     7.5                 24.5                   17.0             227%
 The ANB Corporation                                    20.0                  37.0                   17.0               85%
 First Texas BHC, Inc.                                  13.5                  29.8                   16.3             120%
 BOH Holdings, Inc.                                     10.0                  23.9                   13.9             139%
 Northway Financial, Inc.                               10.0                  23.6                   13.6             136%
 Note: Numbers may be affected by rounding.

 Sources: Treasury, SBLF Transactions Report, 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.
 aspx, accessed 2/29/2012; Treasury, Transactions Report, 4/2/2012.




Healthier Banks Exited TARP Through SBLF
SIGTARP’s analysis of the 390 banks that remained in CPP after SBLF versus
the 137 that exited TARP through SBLF reveals differences in total asset size and
geographical location. Analysis of indicators of bank financial health, including
capital ratios, missed TARP dividends, and formal regulatory enforcement actions,
shows that healthier banks exited TARP through SBLF and many weaker banks
remain in TARP.

Total Asset Size
SBLF was not a program intended for larger banks because it limited participation
to banks with $10 billion in assets or less. The SBLF program was a more viable
TARP exit strategy for small to mid-sized community banks than it was for very
16   special inspector general I troubled asset relief program




                                            small or larger CPP community banks. Almost half (47%) of the CPP banks that
                                            exited TARP through SBLF had assets of $300 million to $1 billion.75 Of the banks
                                            that remained in CPP as of September 30, 2011, after SBLF, 34% had assets of
                                            $300 million to $1 billion.76 Only 10% of the CPP banks that exited TARP through
                                            SBLF had assets of less than $150 million, compared with 19% of the banks that
                                            remained in CPP.77 Of the institutions remaining in CPP, 11 of the very largest
                                            institutions were too big for SBLF.78 Table 1.5 provides a comparison of TARP
                                            banks that exited TARP through SBLF and those that remained in CPP as of
                                            September 30, 2011, after SBLF.

                                            Table 1.5
                                             TARP Banks That Refinanced Into SBLF and Banks Remaining in TARP,
                                             By Assets, As of 9/30/2011
                                                                              Less than $150-$300                      $300 Million                                   More than
                                                                            $150 Million    Million                      -$1 Billion          $1-$5 Billion           $5 Billion
                                             TARP Banks that
                                             Refinanced into                               14                   28                    64                     29                     2
                                             SBLF
                                                 Percent                                 10%                  20%                   47%                    21%                     1%
                                             Remaining TARP
                                                                                           75                   77                  131                      88                    19
                                             Banks
                                                 Percent                                 19%                  20%                   34%                    23%                     5%
                                             Note: This table compares the 137 banks that refinanced from TARP into SBLF to the 390 banks that remained in TARP as of
                                             9/30/2011.

                                             Source: SNL Financial data. Assets are from GAAP financials. If unavailable, regulatory filings were used. Financial information of
                                             subsidiary or subsidiaries was used if consolidated financials for holding company were unavailable.



                                            Geographic Location
                                            TARP banks in the Southeast and in the Midwest were not as successful as banks
                                            in other regions in securing SBLF funding to exit TARP. More than 50% of TARP
                                            banks that applied to SBLF in the Western region, Southwest/South Central
                                            region, Mountain West/Plains region, and Mid-Atlantic/Northeast region received
                                            SBLF funding.79 In sharp contrast, only 16 of the 71 TARP banks (23%) in the
                                            Southeast that applied to SBLF were accepted.80 Only 33 of the 88 TARP banks
                                            (38%) in the Midwest that applied to SBLF received SBLF funding.81 As a result,
                                            the Southeast and Midwest regions are home to the largest population of banks
                                            remaining in TARP after SBLF investments were made. After SBLF, there were
                                            98 Southeastern banks left in TARP and 116 Midwestern banks left in TARP.82
                                            Tables 3.6 through 3.12 show a breakdown by region and state of banks that were
                                            accepted into SBLF compared with the 390 that remained in CPP as of September
                                            30, 2011. (Regions were defined to align with the definitions of regions that
                                            Treasury uses in its monthly report to Congress on the status of TARP.)
                                                                                                                                 quarterly report to congress I April 25, 2012   17




Table 1.6
 TARP Banks that Refinanced into SBLF and Banks
 Remaining in TARP, By Region, As of 9/30/2011
                                           Applied         Refinanced                Percentage             Remaining
                                           to SBLF          into SBLF                    Funded               in TARP
 West                                                36                   18                     50%                 48
 Mountain West/Plains                                26                   16                     62%                 32
 Southwest/South Central                             30                   16                     53%                 33
 Midwest                                             88                   33                     38%                116
 Mid-Atlantic/Northeast                              64                   38                     59%                 63
 Southeast                                           71                   16                     23%                 98
 Total                                           315                  137                        43%                390
 Note: Numbers may be affected by rounding.




Figure 3.3 Percentage of cpp applicants to sblf that received sblf funding, by region


    AK
                                  MOUNTAIN WEST/
                                      PLAINS
                                       62%                                       MIDWEST
                         WA                                                        38%                                    MID-ATLANTIC/
                                                                                                              VT    ME     NORTHEAST
                                           MT             ND
                    OR                                               MN
                                                                                                                               59%
                                                                                WI                                      NH
   WEST                          ID                       SD                                                 NY          MA
                                                                                        MI
   50%
                                           WY
                                                                      IA                                               CT RI
                                                                                             OH         PA            NJ
                                                          NE
                           NV                                                    IL    IN                           DE
                   CA                 UT                                                              WV VA
                                                CO                    MO                                           MD
                                                               KS                           KY
                                                                                                       NC
                                                                                       TN
           HI                    AZ                             OK        AR                           SC
                                                NM
                                                                                     MS AL       GA         SOUTHEAST
                                                           TX              LA                                  23%
                                                                                                       FL                  PR

                                 SOUTHWEST/
                                SOUTH CENTRAL
                                     53%
                WEST                                                             MIDWEST
                MOUNTAIN WEST/PLAINS                                             MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                          SOUTHEAST
18   special inspector general I troubled asset relief program




          West
          Table 1.7
           TARP BAnks That Refinanced into SBLF and Banks Remaining In TARP, By State, As of 9/30/2011
                                                                                  Applied to            Refinanced   Percentage   Remaining
                                                                                       SBLF              into SBLF       Funded     in TARP
                                                       WA            AK                       1                 0           0%            1
                                                                     CA                     27                 15          56%          36
                        AK
                                                  OR                  HI                      0                 0            —            1
                                                                    OR                        2                 0           0%            3
                                                                    WA                        6                 3          50%            7
                                                                  Total                     36                 18          50%          48
                                                  CA             Note: Numbers may be affected by rounding.



                                   HI

                      WEST                        76-100%
                      Percentage of CPP           51-75%
                      Applicants to SBLF          26-50%
                      That Received SBLF          0-25%
                      Funding, By State           NA




          Mountain West/Plains
          Table 1.8
           TARP BAnks That Refinanced into SBLF and Banks Remaining In TARP, By State, As of 9/30/2011
                                                                                 Applied to            Refinanced    Percentage   Remaining
                                                                                      SBLF              into SBLF        Funded     in TARP
                                                                    CO                        6                 3          50%           8
                                        MT          ND
                                                                     ID                       1                 1         100%           3
                         ID                            SD           KS                        9                 6          67%           9
                                         WY
                                                                    MT                        0                 0            —           0
                                                       NE
                   NV                                               ND                        3                 0           0%           3
                              UT
                                             CO                     NE                        3                 3         100%           5
                                                            KS
                                                                    NV                        0                 0            —           1
                                                                    SD                        0                 0            —           0
                MOUNTAIN WEST/                         76-100%
                                                       51-75%       UT                        2                 2         100%           2
                PLAINS                                 26-50%
                Percentage of CPP Applicants
                                                       0-25%       WY                         2                 1          50%           1
                To SBLF that Received SBLF
                                                       NA
                Funding, By State                                Total                      26                 16          62%          32
                                                                 Note: Numbers may be affected by rounding.
                                                                                                        quarterly report to congress I April 25, 2012   19




Southwest/South Central
Table 1.9
 TARP BAnks That Refinanced into SBLF and Banks Remaining In TARP, By State, As of 9/30/2011
                                                                            Applied to           Refinanced      Percentage        Remaining
                                                                                 SBLF             into SBLF          Funded          in TARP

      AZ                               OK                     AR                        7                 1             14%                 7
                  NM                              AR
                                                               AZ                       1                 1            100%                 3
                                                      LA       LA                       5                 4             80%                 4
                                  TX
                                                              NM                        1                 0               0%                3
                                                              OK                        4                 3             75%                 2
                                                               TX                     12                  7             58%                14

      SOUTHWEST/                               76-100%      Total                     30                 16             53%                33
                                               51-75%
      SOUTH CENTRAL                            26-50%
                                                           Note: Numbers may be affected by rounding.
      Percentage of CPP                        0-25%
      Applicants to SBLF that
      Received SBLF Funding,
      By State




Midwest
Table 1.10
 TARP BAnks That Refinanced into SBLF and Banks Remaining In TARP, By State, As of 9/30/2011
                                                                            Applied to            Refinanced     Percentage        Remaining
                                                                                 SBLF              into SBLF         Funded          in TARP
                                                                IA                      4                 2              50%                5
                MN                                              IL                    22                  7              32%               27
                        WI
                                       MI                       IN                      8                 5              63%                8
                  IA                                           KY                       6                 1              17%               11
                             IL   IN        OH
                                                               MI                       5                 2              40%                9
                   MO
                                        KY                    MN                        7                 3              43%               12
                                                              MO                      18                  8              44%               22
            MIDWEST                         76-100%
                                                              OH                        6                 0               0%               10
            Percentage of CPP               51-75%
            Applicants to SBLF              26-50%             WI                     12                  5              42%               12
            That Received SBLF              0-25%
            Funding, By State
                                                            Total                     88                 33             38%               116
                                                           Note: Numbers may be affected by rounding.
20   special inspector general I troubled asset relief program




          Mid-Atlantic/Northeast
          Table 1.11
           TARP BAnks That Refinanced into SBLF and Banks Remaining In TARP, By State, As of 9/30/2011
                                                                                    Applied to            Refinanced    Percentage     Remaining
                                                                                         SBLF              into SBLF        Funded       in TARP
                                         VT    ME                      CT                        4                 3          75%              1

                                                      NH               DE                        1                 0           0%              1
                                    NY                 MA             MA                         3                 2          67%              2
                                                            RI
                                                     CT               MD                         8                 4          50%             10
                               PA                   NJ
                                                   DE                  ME                        1                 1         100%              2
                         WV
                         WV    VA             MD                       NH                        5                 5         100%              1
                                                                       NJ                        8                 4          50%              9
                                                                       NY                        3                 3         100%              5
                  MID-ATLANTIC/                           76-100%
                                                          51-75%       PA                      18                 10          56%             14
                  NORTHEAST                               26-50%
                  Percentage of CPP                       0-25%         RI                       1                 0           0%              1
                  Applicants to SBLF that                 NA
                  Received SBLF Funding,                               VA                      11                  5          45%             16
                  By State
                                                                       VT                        0                 0            —              0
                                                                       WV                        1                 1         100%              1
                                                                    Total                      64                 38          59%             63
                                                                    Note: Numbers may be affected by rounding.




          Southeast
          Table 1.12
           TARP BAnks That Refinanced into SBLF and Banks Remaining In TARP, By State, As of 9/30/2011
                                                                                     Applied to            Refinanced   Percentage   Remaining in
                                                                                          SBLF              into SBLF       Funded         TARP
                                              NC
                         TN                                             AL                       5                 1          20%              7
                                          SC
                                                                        FL                       6                 2          33%             14
                    MS    AL        GA
                                                                        GA                     11                  0           0%             20
                                                                       MS                        4                 1          25%              3
                                              FL             PR
                                                                       NC                      16                  4          25%             21
                                                                        PR                       0                 0            —              2
                    SOUTHEAST                        76-100%            TN                     17                  6          35%             15
                    Percentage of CPP                51-75%
                    Applicants to SBLF               26-50%             SC                     12                  2          17%             16
                    That Received SBLF               0-25%
                                                     NA
                                                                     Total                     71                 16          23%             98
                    Funding, By State
                                                                    Note: Numbers may be affected by rounding.
                                                                                                                                  quarterly report to congress I April 25, 2012   21




Financial Health
SBLF culled a large number of the healthier community banks from TARP, leaving
less-healthy banks in TARP that had less capital, had missed dividends, or, in many
cases, were subject to enforcement actions by their regulators. No banks received
SBLF investments if they were delinquent on their TARP dividends and interest
payments or were subject to enforcement actions by their regulators.

Capital Status
The banks that exited TARP through SBLF were better capitalized and financially
stronger than those that remained in TARP. Capital ratios are one widely used
measure of the health of a financial institution. One of the most closely followed
is called a Tier-1 common risk-based capital ratio.83 That ratio compares an
institution’s core equity capital to its risk weighted assets, excluding preferred
shares and non-controlling interests. TARP investments are not considered equity
in this calculation. The higher the ratio, the healthier the bank. As one benchmark,
under the international banking capital standards known as Basel III, which are
being phased in worldwide but have not been adopted in the United States, banks
would effectively be required to maintain Tier 1 common risk-based capital ratios
of 7%.84 Among the 19 largest U.S. banks, that ratio on aggregate in the third
quarter of 2011 was 10.1%, according to the Federal Reserve.85
    The average Tier 1 common risk-based capital ratio in the third quarter of 2011
for TARP banks that refinanced into SBLF was 11.7%, with 59.6% with ratios over
11% and only 3.7% with ratios under 7%.86 In contrast, for banks remaining in CPP
as of September 30, 2011, the average Tier 1 common risk-based capital ratio was
10.25%, but 20.2% had ratios under 7%.87
    Table 1.13 shows the Tier-1 common risk-based capital ratios for the commu-
nity banks accepted into SBLF compared with the banks that remained in CPP as
of September 30, 2011.

Table 1.13
 TARP Banks That Refinanced Into SBLF and Banks Remaining in TARP,
 by Tier 1 Common Risk-based Ratio, As of 9/30/2011
                                          Less than                                                                       More than
                                             7%                  7-8.9%             9-10.9%           11-12.9%              13%
 TARP Banks that
                                                5                    23                 27                  39                  42
 Refinanced into SBLF
     Percentage                                4%                   17%                20%                 29%                31%
 Remaining TARP
                                               78                    61                 71                  84                  92
 Banks
     Percent                                  20%                   16%                18%                 22%                23%
 Notes: Percentages may not add to 100 due to rounding. This table compares the 137 banks that refinanced from TARP into SBLF
 to the 390 banks that remained in TARP as of 9/30/2011. Tier 1 common risk-based ratios were not available, and not included
 in this table, for four banks remaining in TARP (Blue River Bancshares, Inc.; First Financial Holdings, Inc.; Santa Lucia Bancorp; and
 Tennessee Commerce Bancorp.) and for one bank that refinanced into SBLF (MutualFirst Financial Inc.).

 Source: SNL Financial data; if information was unavailable at the holding company level, data from largest banking subsidiary was
 used.
22              special inspector general I troubled asset relief program




                                                          Missed TARP Dividend Payments
                                                          One sign of the squeeze facing community banks is the number that have
                                                          missed CPP dividend or interest payments to the Government. Of the 351 banks
                                                          remaining in TARP as of March 31, 2012, there were 163, or 46%, that were not
                                                          current in making dividends and interest payments totaling $306 million.88 (Other
                                                          CPP banks have missed dividends and subsequently failed, filed for bankruptcy, or
                                                          were sold or restructured, sometimes at a loss to Treasury). Of those 163 banks,
                                                          116 had missed five or more payments.89 Ninety-five of those institutions had
                                                          missed six or more payments, which gives Treasury the right to appoint directors to
                                                          their boards. Treasury had appointed directors at only nine of those institutions as
                                                          of March 31, 2012, but not the rest.90 Table 1.14 lists institutions still in CPP that
                                                          had missed payments as of March 31, 2012, by bank asset size.

                                                          Table 1.14
                                                           Missed Dividend or Interest Payments, by Bank Size, AS of 3/31/2012
                                                                                   Assets Less Assets $100 Assets $500      Assets                                     Assets More
                                                                                    Than $100      to $500    Million to $1 to $10                                       Than $10
                                                                                        Million      Million  $1 Billion     Billion                                         Billion                Total
                                                           1 or 2 missed
                                                                                                 2                   10                      0                  3                      1             16
                                                           payments
                                                           3 to 5 missed
                                                                                                 6                   24                     10                12                       0             52
                                                           payments
                                                           6 to 9 missed
     FIGURE 3.4                                                                                  6                   38                     14                11                       1             70
                                                           payments
     FORMAL ENFORCEMENT                                    10 or more                            1                   13                      6                  5                      0             25
     ACTIONS AGAINST CPP                                   Total                               15                    85                    30                 31                       2            163
     BANKS BY ASSET SIZE, AS
                                                           Percent                             9%                  52%                   18%                19%                     1%
     OF 3/31/2012
                                                           Notes: Numbers may be affected by rounding. Banks paid dividends on preferred shares held by Treasury. Mutual banks and savings
                                                           institutions made interest payments on debt securities held by Treasury because they are not allowed to sell preferred shares.

                                                           Sources: Treasury, Dividends and Interest Report, 4/10/2012; SIGTARP analysis of SNL Financial data. Assets are from GAAP
                    11                                     financials. If unavailable, regulatory filings were used. Financial information of subsidiary or subsidiaries was used if consolidated
                                                           financials for holding company were unavailable.
           27

                                                          Regulatory Enforcement Orders
         21            54
                                                          About one-third of the banks that remained in CPP on March 31, 2012, faced
                                                          formal enforcement orders from their Federal regulators. Banking regulators
                                                          have many informal and formal enforcement powers when a bank examination
                                                          raises safety and soundness concerns. These actions range from informal written
         Assets less than $100 million
         Assets $100 million to $500 million
                                                          commitments to formal enforcement actions such as cease-and-desist orders,
         Assets $500 million to $1 billion                written agreements, and orders calling for “prompt corrective action.”91
         Assets more than $1 billion                          More than half of the pending formal enforcement orders against CPP banks in-
                                                          volved smaller community banks, with assets less than $500 million; three-quarters
                                                          involved banks with assets less than $1 billion.92 The orders set deadlines spelling
     Note: Banks that had both a pending FRB Written
     Agreement and a Cease and Desist Order on            out specific steps that must be taken by bank executives, such as reducing CRE loan
     3/31/2012 were included only in the FRB category
     and not counted twice.                               concentration, creating independent loan review procedures, or hiring a consultant
     Source: FRB, OCC, FDIC, OTS enforcement databases.
                                                          to assess the performance of current management. Figure 3.4 shows formal enforce-
                                                          ment actions outstanding against CPP institutions as of March 31, 2012.
                                                                                 quarterly report to congress I April 25, 2012     23




Recent Developments
The number of banks in CPP has fallen from 390 on September 30, 2011, after
SBLF, to 351 as of March 31, 2012:

•	   27 banks have paid back CPP in full
•	   8 banks have been sold at a loss
•	   1 bank merged with another CPP bank
•	   3 banks have failed

    SBLF provided a way out of CPP for 137 TARP banks. How the banks that
remain in TARP as of March 31, 2012, will leave TARP remains unclear. Those
banks that remain in the program face a steep increase in their dividend rates next
year, from 5% to 9%.
    Because of the situation facing community banks in TARP, on October 11,
2011, two weeks after SBLF closed to new entrants, SIGTARP made two recom-
mendations urging that Treasury must take action on community banks. One
recommendation called for Treasury, working in consultation with Federal banking
regulators, to “develop a clear TARP exit path to ensure that as many community                For more on these recommendations
banks as possible repay the TARP investment and prepare to deal with the banks                 regarding community banks, see
                                                                                               SIGTARP’s October 2011 Quarterly
that cannot.” The second called for Treasury to “assess whether it should renegoti-
                                                                                               Report, pp. 7-8 and 167-169.
ate the terms of its Capital Purchase Program contracts for those community banks
that will not be able to exit TARP prior to the dividend rate increase in order to help
preserve the value of taxpayers’ investments.” Getting these banks back on their feet
without Government assistance must remain a high priority of Treasury and the
Federal banking regulators.
24            special inspector general I troubled asset relief program



     1.	    SIGTARP, “Engagement Memo—Update on Announced Review of the Process for Refinancing Treasury’s TARP Investments to SBLF,”
            11/23/2011, www.sigtarp.gov/reports/audit/2012/Engagement_Memo_Update_SBLF.pdf, accessed 3/22/2012.
     2.	    SNL Financial, asset data from latest available quarter, accessed 4/3/2012.
     3.	    FRB, “Community Bank Examination and Supervision amid Economic Recovery,” speech by Federal Reserve Board Governor Sarah Bloom
            Raskin to the Maryland Bankers Association, 1/6/2012, www.federalreserve.gov/newsevents/speech/raskin20120106a.htm, accessed 4/4/2012.
     4.	    FRB, “Community Banking in a Period of Recovery and Change,” speech by Federal Reserve Board Chairman Ben Bernanke to the Independent
            Community Bankers of America, 3/23/2011, www.federalreserve.gov/newsevents/speech/bernanke20110323a.htm, accessed 4/4/2012.
     5.	    Regions Financial Corporation Press Release, “Regions Financial Corporation Completes Repurchase of U.S. Treasury’s $3.5 Billion in
            Preferred Stock Under TARP,” 4/4/2012, ir.regions.com/releasedetail.cfm?ReleaseID=661895, accessed 4/5/2012.
     6.	    Treasury, “Community Development Capital Initiative,” Office of Financial Stability, February 2010, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cdci/Pages/comdev.aspx, accessed 4/5/2012.
     7.	    Independent Community Bankers of America, “ICBA Members: Fast Facts,” undated, www.icba.org/aboutICBA/index.cfm?ItemNumber=529,
            accessed 4/4/2012.
     8.	    FRB, “Community Banking in a Period of Recovery and Change,” speech by Federal Reserve Board Chairman Ben Bernanke, 3/23/2011, www.
            federalreserve.gov/newsevents/speech/bernanke20110323a.htm, accessed 4/4/2012.
     9.	    Office of the Comptroller of the Currency, “Community Bank Supervision: Comptroller’s Handbook,” January 2010, www.occ.gov/publications/
            publications-by-type/comptrollers-handbook/cbs.pdf, accessed 4/4/2012.
     10.	   National Credit Union Administration, “NCUA Fact Sheet,” undated, www.ncua.gov/News/PressKits/Docs/PressKits.pdf, accessed 4/4/2012.
     11.	   FDIC, “Community Banking by the Numbers,” slides presented by FDIC Chief Economist Richard Brown, 2/16/2012, www.fdic.gov/news/
            conferences/communitybanking/community_banking_by_the_numbers_clean.pdf, accessed 4/4/2012.
     12.	   FDIC, “Community Banking by the Numbers,” slides presented by FDIC Chief Economist Richard Brown, 2/16/2012, www.fdic.gov/news/
            conferences/communitybanking/community_banking_by_the_numbers_clean.pdf, accessed 4/4/2012.
     13.	   Conference of State Bank Supervisors, “Community Banks and Capital: Assessing a Community Bank’s Need and Access to Capital in the Face
            of Market and Regulatory Challenges,” December 2011, www.csbs.org/news/csbswhitepapers/Documents/CSBS-CommunityBanksCapitalWhite
            Paper120811.pdf, accessed 4/4/2012.
     14.	   FDIC, “Remarks by Acting FDIC Chairman Martin J. Gruenberg, FDIC Conference on the Future of Community Banking,” 2/16/2012, www.
            fdic.gov/news/news/speeches/chairman/spfeb1612.html, accessed 4/4/2012.
     15.	   FRB of San Francisco, “Recent Trends in Small Business Lending,” by Liz Laderman and James Gillan, published in FRBSF Economic Letter,
            10/17/2011 www.frbsf.org/publications/economics/letter/2011/el2011-32.html, accessed 4/4/2012.
     16.	   Remarks by Dorothy Savarese, CEO of Cape Cod Five Cents Savings Bank, during panel discussion at Federal Deposit Insurance Corporation’s
            Future of Community Banking Conference, 2/16/2012, in Washington, D.C.
     17.	   “Community Banking By the Numbers,” slides presented by Timothy Koch, professor of banking and finance, University of South Carolina,
            2/16/2012, www.fdic.gov/news/conferences/communitybanking/comm_banking_by_numbers_Koch.pdf, accessed 4/4/2012.
     18.	   “Big banks dominate small business lending, community banks losing market share,” by Harish Mali and Maria Tor, SNL Financial LLC,
            2/24/2012, www.snl.com/InteractiveX/article.aspx?id=14242803&KPLT=4&Printable=1, accessed 4/4/2012.
     19.	   “Outlook for Bank M&A in 2012,” slides presented by Raymond James, Barack Ferrazzano Financial Institutions Group, and McGladrey &
            Pullen, LLP, 12/6/2011, http://mcgladrey.com/Events/Outlook-for-Bank-MA-in-2012, accessed 4/4/2012.
     20.	   “How Bank Investors Use Stress Testing,” Joshua Siegel, managing principal of StoneCastle Partners, May 2011, www.csbs.org/development/
            Documents/SiegelSFSF2011.pdf, accessed 4/22/2012.
     21.	   “Community Banks and Capital: Assessing a Community Bank’s Need and Access to Capital in the Face of Market and Regulatory Challenges,”
            Conference of State Bank Supervisors white paper, December 2011. www.csbs.org/news/csbswhitepapers/Documents/CSBS-CommunityBanksC
            apitalWhitePaper120811.pdf, accessed 4/4/2012.
     22.	   “How Bank Investors Use Stress Testing,” Joshua Siegel, managing principal of StoneCastle Partners, May 2011, www.csbs.org/development/
            Documents/SiegelSFSF2011.pdf, accessed 4/22/2012.
     23.	   “Community Banks and Capital: Assessing a Community Bank’s Need and Access to Capital in the Face of Market and Regulatory Challenges,”
            Conference of State Bank Supervisors white paper, December 2011. www.csbs.org/news/csbswhitepapers/Documents/CSBS-CommunityBanksC
            apitalWhitePaper120811.pdf, accessed 4/4/2012.
     24.	   FRB of St. Louis, “What Are the Challenges that Banks Face to Raise Capital?” Gary S. Corner, Central Banker, published spring 2010, Federal
            Reserve Bank of St. Louis, www.stlouisfed.org/publications/cb/articles/?id=1925, accessed 4/4/2012.
     25.	   “Long-term M&A Cycle Creates Opportunity in Banking Industry: 2011 in Review,” Martin Friedman, cofounder, and Scott Cottrell, managing
            director, FJ Capital Management, LLC, 2/9/2012, www.nj.com/business/prnewswire/index.ssf?/nj/story/?catSetID=7012&catID=819142&nrid=1
            39296308&page=1, accessed 4/4/2012.
     26.	   “Long-term M&A Cycle Creates Opportunity in Banking Industry: 2011 in Review,” Martin Friedman, cofounder, and Scott Cottrell, managing
            director, FJ Capital Management, LLC, 2/9/2012, www.nj.com/business/prnewswire/index.ssf?/nj/story/?catSetID=7012&catID=819142&nrid=1
            39296308&page=1, accessed 4/4/2012.
     27.	   SIGTARP, Quarterly Report to Congress, 4/28/2011, www.sigtarp.gov/reports/congress/2011/April2011_Quarterly_Report_to_Congress.pdf,
            accessed 4/4/2012.
     28.	   Treasury, “Capital Purchase Program,” Treasury, undated, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/
            Pages/capitalpurchaseprogram.aspx, accessed 4/5/2012.
     29.	   Treasury, “Capital Purchase Program,” undated, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Pages/
            capitalpurchaseprogram.aspx, accessed 4/18/2012.
     30.	   Treasury, “Statement by Secretary Henry M. Paulson, Jr. on Capital Purchase Program,” 10/20/2008, www.treasury.gov/press-center/press-
            releases/Pages/hp1223.aspx, accessed 4/4/2012.
     31.	   FRB, “The Effect of TARP on Bank Risk-Taking,” by Lamont Black and Lieu Hazelwood, 3/6/2012, FRB International Finance Discussion
            Paper No. 1043, www.federalreserve.gov/pubs/ifdp/2012/1043/default.htm, accessed 4/4/2012.
     32.	   SIGTARP, “SIGTARP Survey Demonstrates that Banks Can Provide Meaningful Information on Their Use of TARP Funds,” 7/20/2009, www.
                                                                                                 quarterly report to congress I April 25, 2012                   25


       sigtarp.gov/reports/audit/2009/SIGTARP_Survey_Demonstrates_That_Banks_Can_Provide_Meaningful_Information_On_Their_Use_Of_TARP_
       Funds.pdf, accessed 4/4/2012.
33.	   Treasury, “Frequently Asked Questions Regarding the Capital Purchase Program for Small Banks,” undated, Office of Financial Stability,
       www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/FAQonCPPforsmallbanks.pdf; FRB, “Agencies
       Encourage Participation in Treasury’s Capital Purchase Program, FDIC’s Temporary Liquidity Guarantee Program,” 10/20/2008, www.
       federalreserve.gov/newsevents/press/bcreg/20081020a.htm, accessed 4/4/2012.
34.	   Treasury, “Capital Purchase Program,” undated, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Pages/
       capitalpurchaseprogram.aspx, accessed 4/5/2012.
35.	   Treasury, “TARP Standards for Compensation and Corporate Governance,” Interim Final Rule, 6/15/2009, www.treasury.gov/initiatives/
       financial-stability/exec_comp/Documents/Interim%20Final%20Rule%20on%20Compensation%20and%20Corporate%20Governance.pdf,
       accessed 4/5/2012.
36.	   FDIC, “Remarks by FDIC Acting Chairman Martin J. Gruenberg to the American Banker Regulatory Symposium,” 9/19/2011. www.fdic.gov/
       news/news/speeches/chairman/spsep1911.html, accessed 4/4/2012.
37.	   FDIC, Failed Bank List, updated weekly, www.fdic.gov/bank/individual/failed/banklist.html, accessed 4/4/2012.
38.	   FDIC, Failed Bank List, updated weekly, www.fdic.gov/bank/individual/failed/banklist.html, accessed 4/4/2012.
39.	   FDIC, “Remarks by FDIC Acting Chairman Martin J. Gruenberg to the American Banker Regulatory Symposium,” 9/19/2011. www.fdic.gov/
       news/news/speeches/chairman/spsep1911.html, accessed 4/4/2012.
40.	   SIGTARP, Quarterly Report to Congress, 1/26/2012 , p. 106, www.sigtarp.gov/reports/congress/2012/January_26_2012_Report_to_Congress.
       pdf, accessed 4/4/2012.
41.	   FRB, “Community Banking,” Federal Reserve Board Chairman Ben Bernanke speech, 2/16/2012, www.federalreserve.gov/newsevents/speech/
       bernanke20120216a.htm,accessed 4/4/2012.
42.	   FRB of San Francisco, “Recent Trends in Small Business Lending,” by Liz Laderman and James Gillan, published in FRBSF Economic Letter,
       10/17/2011, www.frbsf.org/publications/economics/letter/2011/el2011-32.html, accessed on 4/4/2012.
43.	   “The Changing Landscape of Community Banking,” by Gary S. Corner, senior examiner, Federal Reserve Bank of St. Louis, Fall 2010, www.
       stlouisfed.org/publications/cb/articles/?id=1997, accessed on 4/4/2012.
44.	   FDIC Office of Inspector General, “Follow-up Audit of FDIC Supervision Program Enhancements,” 12/23/2010, www.fdicig.gov/
       reports11/11-010.pdf, accessed 4/4/2012.
45.	   FDIC Office of Inspector General, “Follow-up Audit of FDIC Supervision Program Enhancements,” 12/23/2010, www.fdicig.gov/
       reports11/11-010.pdf, accessed 4/4/2012.
46.	   SIGTARP, “SIGTARP Survey Demonstrates that Banks Can Provide Meaningful Information on Their Use of TARP Funds,” 7/20/2009, www.
       sigtarp.gov/reports/audit/2009/SIGTARP_Survey_Demonstrates_That_Banks_Can_Provide_Meaningful_Information_On_Their_Use_Of_TARP_
       Funds.pdf, accessed 4/4/2012.
47.	   SIGTARP, Quarterly Report to Congress, July 21, 2009, p. 186, www.sigtarp.gov/987egapograbme123654/J09-3-SIGRTC.pdf, accessed
       4/4/2012.
48.	   Treasury, “Use of Capital Survey,” Office of Financial Stability, undated, www.treasury.gov/initiatives/financial-stability/results/cpp/use-of-capital/
       Pages/default.aspx, accessed 4/5/2012.
49.	   Treasury, “About the Capital Purchase Program Monthly Lending Report,” Office of Financial Stability, undated, www.treasury.gov/initiatives/
       financial-stability/results/cpp/bank-lending/Documents_Other/About%20the%20CPP%20Monthly%20Lending%20Report.pdf, accessed
       4/5/2012.
50.	   Treasury, “Use of Capital Survey,” Office of Financial Stability, undated, www.treasury.gov/initiatives/financial-stability/results/cpp/use-of-capital/
       Pages/default.aspx, accessed 4/5/2012.
51.	   Treasury, CPP Annual Use of Capital Survey – 2010, form submitted by Colony Bankcorp, Inc., undated www.treasury.gov/initiatives/financial-
       stability/results/cpp/use-of-capital/Survey%20Data2010/259.pdf, accessed 4/5/2012.
52.	   Treasury, CPP Annual Use of Capital Survey – 2010, form submitted by Ameris Bancorp, undated, www.treasury.gov/initiatives/financial-
       stability/results/cpp/use-of-capital/Survey%20Data2010/58.pdf, accessed 4/5/2012.
53.	   Treasury, “FAQs on Capital Purchase Program Repayment,” Office of Financial Stability, undated, www.treasury.gov/initiatives/financial-stability/
       programs/investment-programs/cpp/Documents/FAQ_CPP_guidance.pdf, accessed 4/5/2012.
54.	   Treasury, “TARP Capital Purchase Program,” Office of Financial Stability, 11/17/2008, www.treasury.gov/press-center/press-releases/Documents/
       term%20sheet%20%20private%20c%20corporations.pdf; Treasury, “FAQs addressing Capital Purchase Program changes under the American
       Recovery and Reinvestment Act of 2009,” Office of Financial Stability, 3/1/2012, 2/26/2009, www.treasury.gov/initiatives/financial-stability/
       programs/investment-programs/cpp/Documents/CPP-FAQs.pdf, accessed 4/5/2012.
55.	   Treasury, “TARP Capital Purchase Program,” Office of Financial Stability, 11/17/2008, www.treasury.gov/press-center/press-releases/Documents/
       term%20sheet%20%20private%20c%20corporations.pdf, accessed 4/5/2012.
56.	   SIGTARP, “Assessing Treasury’s Process to Sell Warrants Received from TARP Recipients,” 5/10/2009, www.sigtarp.gov/reports/audit/2010/
       Assessing%20Treasury’s%20Process%20to%20Sell%20Warrants%20Received%20From%20TARP%20Recipients_May_11_2010.pdf, accessed
       4/4/2012.
57.	   SIGTARP, Quarterly Report to Congress, 4/20/2010, p. 84, www.sigtarp.gov/reports/congress/2010/April2010_Quarterly_Report_to_Congress.
       pdf, accessed 4/5/2012.
58.	   SIGTARP, Quarterly Report to Congress, 1/26/2012, p. 106, www.sigtarp.gov/reports/congress/2012/January_26_2012_Report_to_Congress.pdf,
       accessed 4/5/2012. “July Oversight Report - Small Banks in the Capital Purchase Program,” Congressional Oversight Panel, 7/14/2010, p. 33,
       www.gpo.gov/fdsys/pkg/CPRT-111JPRT57212/pdf/CPRT-111JPRT57212.pdf, accessed 4/5/2012.
59.	   Government Accountability Office, “Opportunities Exist to Apply Lessons Learned from the Capital Purchase Program to Similarly Designed
       Programs and to Improve the Repayment Process,” GAO-11-47, October 2010, www.gao.gov/new.items/d1147.pdf, accessed 4/4/2012.
60.	   Small Business Jobs Act, P.L. 111-240, 9/27/2010, p.1, p.83.
61.	   Treasury, response to SIGTARP data call, 10/5/2011.
26             special inspector general I troubled asset relief program



     62.	   Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
            2/29/2012.
     63.	   Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
            2/29/2012.
     64.	   Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
            2/29/2012.
     65.	   Treasury, response to SIGTARP data call, 10/5/2011.
     66.	   Treasury, “TARP Transactions Report,” 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/
            default.aspx, accessed 3/1/2012.
     67.	   Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
     68.	   Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
     69.	   Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
            2/29/2012.
     70.	   Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
            2/29/2012.
     71.	   Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
            2/29/2012.
     72.	   Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
            2/29/2012.
     73.	   Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
            2/29/2012.
     74.	   Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
            2/29/2012.
     75.	   SNL Financial LLC data.
     76.	   SNL Financial LLC data.
     77.	   SNL Financial LLC data.
     78.	   SNL Financial LLC data.
     79.	   Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
     80.	   Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
     81.	   Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
     82.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/default.
            aspx, accessed 3/1/2012.
     83.	   FRB, “Comprehensive Capital Analysis and Review 2012: Methodology and Results for Stress Scenario Projections,” Board of Governors of the
            Federal Reserve System, March 13, 2012, www.federalreserve.gov/newsevents/press/bcreg/bcreg20120313a1.pdf, accessed 4/18/2012.
     84.	   FRB, “Banking Committee of Banking Supervision Reforms—Basel III Summary Table,” Bank of International Standards, undated, www.bis.
            org/bcbs/basel3/b3summarytable.pdf, accessed March 23, 2012.
     85.	   FRB, “Comprehensive Capital Analysis and Review 2012: Methodology and Results for Stress Scenario Projections,” Board of Governors of the
            Federal Reserve System, March 13, 2012, www.federalreserve.gov/newsevents/press/bcreg/bcreg20120313a1.pdf, accessed 4/18/2012.
     86.	   SNL Financial LLC data.
     87.	   SNL Financial LLC data.
     88.	   Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Pages/
            default.aspx, accessed 4/3/2012.
     89.	   Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Pages/
            default.aspx, accessed 4/3/2012.
     90.	   Treasury, response to SIGTARP data call, 4/5/2012.
     91.	   FRB, “About Enforcement Actions,” updated 10/29/2010, www.federalreserve.gov/apps/enforcementactions/default.aspx, accessed 4/5/2012.
            OCC, “Enforcement Actions Types,” undated, www.occ.gov/topics/laws-regulations/enforcement-actions/enforcement-actions-types.html,
            accessed 4/4/2012.
     92.	   FRB, Enforcement Actions database, www.federalreserve.gov/apps/enforcementactions/search.aspx, accessed 4/4/2012; OCC, Enforcement
            Actions Search Tool database, http://apps.occ.gov/EnforcementActions/, accessed 4/4/2012; FDIC, Enforcement Decisions and Orders database,
            www.fdic.gov/bank/individual/enforcement/begsrch.html, accessed 4/4/2012.
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated
with the Troubled Asset Relief Program, please contact the SIGTARP Hotline.
By Online Form:	       www.SIGTARP.gov
By Phone:	             Call toll free: (877) SIG-2009
By Fax:	               (202) 622-4559
By Mail:	              Hotline: Office of the Special Inspector General
	                      for the Troubled Asset Relief Program
	                      1801 L Street., NW, 3rd Floor
	                      Washington, D.C. 20220




Press Inquiries
If you have any inquiries, please contact our Press Office:
	                     Troy Gravitt
	                     Director of Communications
	Troy.Gravitt@treasury.gov
	202-927-8940




Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:
	                    Joseph Cwiklinski
	                    Director of Legislative Affairs
	Joseph.Cwiklinski@treasury.gov
	202-927-9159




Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov.




                                                          C
                                                     INSPE TOR GEN
                                                AL                E
                                           CI
                                                                            RA
                                       E
                                     SP




                                                                                L
                                                                                M
                                    TRO




                                                                            RA




                                          LE
                                      UB




                                                                       OG




                                               DA                           R
                                                     S S E T R E LI E F P
